Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    PUBLIC ASSISTANCE
  REPORTING INFORMATION
      SYSTEM: STATE
   PARTICIPATION IN THE
   MEDICAID INTERSTATE
     MATCH IS LIMITED




                          Brian P. Ritchie
                 Acting Deputy Inspector General for
                     Evaluation and Inspections

                            July 2014
                          OEI-09-11-00780
EXECUTIVE SUMMARY – PUBLIC ASSISTANCE REPORTING INFORMATION
SYSTEM: STATE PARTICIPATION IN THE MEDICAID INTERSTATE MATCH
IS LIMITED, OEI-09-11-00780

WHY WE DID THIS STUDY

In 2013, eligibility errors caused an estimated 57 percent of improper Medicaid payments,
representing approximately $8.2 billion in Federal expenditures. One type of eligibility
error occurs when beneficiaries remain enrolled in a State’s Medicaid program for which
they are ineligible because they are no longer residents of the State and/or have failed to
timely report a change in circumstances (i.e., address and residency) to the State. The
Public Assistance Information Reporting System (PARIS) Medicaid Interstate Match is an
important tool that has the potential to reduce improper Medicaid payments by identifying
beneficiaries who are enrolled in multiple State Medicaid programs. Although the Social
Security Act (SSA) mandates that States participate in the match, neither the SSA nor
guidance from the Centers for Medicare & Medicaid Services (CMS) defines the meaning
of such participation.

HOW WE DID THIS STUDY

We discuss “participation” in the Medicaid Interstate Match as four steps that States
perform to reduce improper payments: (1) submitting Medicaid enrollment data,
(2) verifying matches, (3) discontinuing Medicaid benefits for ineligible beneficiaries, and
(4) recovering any improper Medicaid payments. To determine the extent to which States
participate in the match, we gathered information from States for a random sample of
300 matches from the August 2011 match. We conducted structured interviews with
officials from CMS to determine the extent to which they provided guidance to States on
the four steps. Finally, we conducted a survey of State Medicaid agencies and collected
their match policies to determine the extent to which States have policies on the four steps.
 
WHAT WE FOUND

States’ participation in the Medicaid Interstate Match is limited. CMS guidance to States
for participating in the match is limited, and States reported that they needed more
guidance. Most States had policies addressing at least one of the steps for participating in
the match.

WHAT WE RECOMMEND

We recommend that CMS issue guidance to States on the requirement for participating in
the Medicaid Interstate Match. CMS concurred with our recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................9 

           States’ participation in the Medicaid Interstate Match is limited.....9 

           CMS guidance to States for participating in the Medicaid
           Interstate Match is limited; States reported that they needed
           more guidance................................................................................11

           Most States had policies addressing at least one of the steps
           for participating in the Medicaid Interstate Match ........................12 

Conclusion and Recommendation .............................................................14 

Agency Comments and Office of Inspector General Response.................16 

Appendixes ................................................................................................17 

           Appendix A: Confidence Intervals................................................17 

           Appendix B: Number of Projected Matches for the
           August 2011 Medicaid Interstate Match ........................................18 

           Appendix C: Agency Comments ..................................................19 

Acknowledgments......................................................................................21 

                   OBJECTIVES
                   To determine the extent to which:
                   1.	 States participate in the Public Assistance Reporting Information
                       System (PARIS) Medicaid Interstate Match,
                   2.	 the Centers for Medicare & Medicaid Services (CMS) provides
                       guidance to States for participating in the PARIS Medicaid Interstate
                       Match, and
                   3.	 States have policies and procedures for participating in the PARIS
                       Medicaid Interstate Match.

                   BACKGROUND
                   CMS estimates that nationally, 5.8 percent of Medicaid payments made in
                   fiscal year 2013 were improper, representing $14.4 billion in Federal
                   expenditures.1 Eligibility errors caused an estimated 57 percent of these
                   improper payments,2 representing approximately $8.2 billion in Federal
                   expenditures.3 One type of eligibility error occurs when beneficiaries
                   remain enrolled in a State’s Medicaid program for which they are ineligible
                   because they are no longer residents of the State and/or have failed to
                   timely report a change in circumstances (i.e., address and residency) to the
                   State. Therefore, procedures to capture and share State residency changes
                   are essential for reducing improper payments resulting from beneficiary
                   enrollment in multiple State Medicaid programs.4 PARIS is an important
                   tool that has the potential to reduce improper Medicaid payments by
                   identifying beneficiaries who are enrolled in multiple State Medicaid
                   programs.
                   PARIS
                   PARIS provides all 50 States, the District of Columbia, and Puerto Rico5
                   (States) with information to aid them in detecting and preventing improper
                   payments in the administration of public assistance and medical assistance

                   1
                     Department of Health and Human Services (HHS), Fiscal Year 2013 Agency Financial
                   Report, December 16, 2013, p. 173. 

                   2
                     For the purpose of this report, we use the term “improper payments” to encompass both 

                   erroneous payments caused by eligibility errors and improper payments resulting from

                   potential fraud. 

                   3
                     Office of Inspector General (OIG) analysis based on CMS numbers, Fiscal Year 2013
                   Agency Financial Report, December 16, 2013, p. 173. 

                   4
                     There are conditions under which States may pay for services received by a beneficiary

                   in more than one State, which include, but are not limited to, medical emergencies. 

                   42 CFR § 431.52. 

                   5
                     Puerto Rico is the only United States territory participating in PARIS.

PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                 1
                   programs. PARIS consists of three types of matches—a Federal Match,6 a
                   Veterans Affairs Match,7 and an Interstate Match. The Interstate Match
                   provides States with information about individuals who are enrolled in
                   various types of State health and public assistance programs in multiple
                   States. One type of Interstate Match is the Medicaid Interstate Match,
                   which takes Medicaid enrollment data from one State and matches it to
                   Medicaid enrollment data from other States to identify beneficiaries who
                   are enrolled in multiple State Medicaid programs.8
                   The Administration for Children and Families (ACF). ACF, an agency
                   within HHS, facilitates the PARIS matches and provides information to
                   States about PARIS. As part of its responsibilities for Federal programs
                   that promote the economic and social well-being of children, families, and
                   communities, ACF coordinates with States to ensure that they sign the
                   required annual memorandums of understanding to participate in the
                   PARIS matches.9 ACF also maintains a Web site and sponsors an annual
                   conference to provide information to States regarding PARIS.

                   Federal Requirements for the Medicaid Interstate Match
                   State participation in the Medicaid Interstate Match is required by the
                   Social Security Act (SSA) as a condition of receiving Medicaid funding for
                   automated data systems.10 Effective October 1, 2009, the SSA required
                   States to have a system for determining Medicaid eligibility that provides
                   for data matching through PARIS or any successor system.11, 12



                   6
                     The Federal match provides States with information by matching State data with

                   information from the Department of Defense and the Office of Personnel Management. 

                   This match determines whether beneficiaries receive income from either of these sources 

                   or are eligible for Federal health care coverage. PARIS, Federal Match Files: User 

                   Manual, December 2008, p. 1. 

                   7
                     The Veterans Affairs match provides States with information on the eligibility of their 

                   public and medical assistance beneficiaries for veterans’ benefits and allows States to

                   confirm whether their beneficiaries receive income and/or medical assistance payments 

                   from the Department of Veterans Affairs. Altarum Institute, PARIS Cost-Benefit 

                   Analysis—Final Report, December 2008, p. 3.

                   8
                     The Interstate Match also matches enrollment data from the following public assistance 

                   programs: Temporary Assistance for Needy Families, the Supplemental Nutritional 

                   Assistance Program, the Childcare program, and Worker’s Compensation. 

                   9
                     The annual memorandum of understanding certifies States’ compliance with procedures 

                   for information technology security. ACF, Memorandum of Understanding Interstate 

                   Data Matching by State Public Assistance Agencies. Accessed at 

                   http://www.acf.hhs.gov/programs/paris/appendix-3m on November 5, 2013. 

                   10
                      SSA § 1903(r)(3). States may receive payments for automated data systems authorized

                   by SSA § 1903(a)(3) only if they meet the requirements of SSA § 1903(r)(3). 

                   11
                      As of the date of this report, a successor system does not exist for PARIS. 

                   12
                      SSA § 1903(r)(3). 


PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                   2
                   CMS Guidance for the Medicaid Interstate Match. CMS administers the
                   Medicaid program and has the responsibility to issue guidance regarding
                   States’ participation in the Medicaid Interstate Match. In June 2010, CMS
                   issued a State Medicaid Director Letter (SMDL) to provide formal
                   guidance to State Medicaid agencies on complying with the requirement at
                   section 1903(r)(3) of the SSA that requires States to participate in PARIS.
                   According to the guidance, each State must—to demonstrate compliance
                   with the requirement—amend its Medicaid State plan to document its
                   participation in PARIS.13 However, neither the SSA nor the SMDL
                   defines the meaning of “participation” as it relates to the match.
                   Medicaid Interstate Match Process
                   States submit Medicaid enrollment data to the Defense Manpower Data
                   Center (DMDC), which conducts the Medicaid Interstate Match.14 DMDC
                   conducts quarterly matches in February, May, August, and November of
                   each year. For each quarterly match, DMDC uses the enrollment data
                   submitted by States and compares the Social Security Numbers (SSNs) of
                   enrolled beneficiaries from one State to those of beneficiaries enrolled in
                   other States, thereby identifying beneficiaries who are enrolled in multiple
                   State Medicaid programs. For these beneficiaries, DMDC then generates
                   matches that contain enrollment data from the States with Medicaid
                   programs in which the beneficiary is enrolled. DMDC compiles the
                   matches into a “match file” and sends it to the appropriate States.
                   Reducing Improper Payments Through Participation in the
                   Medicaid Interstate Match
                   Although neither the SSA nor the June 2010 SMDL defines what
                   constitutes State participation in the Medicaid Interstate Match, we
                   identified four steps that States perform to reduce improper payments
                   through their participation in the match. The four steps include
                   (1) submitting Medicaid enrollment data to DMDC, (2) verifying matches
                   (i.e., determining the Medicaid eligibility of the beneficiaries listed in the
                   match file), (3) discontinuing Medicaid benefits for ineligible
                   beneficiaries, and (4) recovering any improper Medicaid payments.
                   Submitting Medicaid Enrollment Data. States receive an email from ACF
                   that provides the deadline for submitting Medicaid beneficiaries’
                   enrollment data for each quarterly Medicaid Interstate Match. States
                   participating in that quarterly match must electronically submit their




                   13
                      CMS, SMDL: Public Assistance Reporting Information System (PARIS), 

                   SMDL#10-009, June 21, 2010. 

                   14
                      DMDC is a Department of Defense contractor that conducts all the PARIS matches. 


PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                  3
                   enrollment data to DMDC by the deadline.15 At a minimum, States are
                   expected to submit enrollment data for the quarterly match conducted in
                   August of each year.16 Neither the SSA nor the SMDL indicates whether
                   States are required to submit enrollment data for all of their Medicaid
                   beneficiaries.
                   The Medicaid enrollment data that States submit to DMDC for the
                   Medicaid Interstate Match include a variety of information. Examples of
                   the information include the beneficiary’s name, SSN, date of birth,
                   address, sex, marital status, and Medicaid eligibility dates (i.e., the start
                   and end dates of Medicaid coverage).17
                   Verifying Matches. After State Medicaid agencies receive their match
                   information from DMDC, agency staff may verify the matches
                   (i.e., determine whether the beneficiary is eligible to receive benefits in
                   their State). Because DMDC uses only the SSNs to identify beneficiaries
                   who are enrolled in multiple State Medicaid programs, State Medicaid
                   agency staff use the Medicaid eligibility dates in the match file to
                   determine whether the beneficiaries’ coverage periods for their State
                   overlap with those for other States.18 Overlapping coverage periods
                   indicate that the beneficiary is simultaneously enrolled in multiple State
                   Medicaid programs. Other verification activities can include requiring a
                   beneficiary to come into the State Medicaid agency’s office to show proof
                   of residency, mailing a residency verification letter to the beneficiary,
                   and/or contacting another State to determine whether the beneficiary is
                   still enrolled in that State’s Medicaid program.
                   Discontinuing Medicaid Benefits. If State Medicaid agency staff verify a
                   match and determine that a beneficiary is ineligible to receive Medicaid
                   benefits in that State, they may initiate action to discontinue the
                   beneficiary’s benefits.19 By discontinuing such benefits, States can reduce
                   improper payments to the managed care organizations and fee-for-service
                   providers that participate in their Medicaid programs.
                   Recovering Improper Medicaid Payments. If State Medicaid agency staff
                   determine that their program made improper payments for a beneficiary
                   whose Medicaid benefits were discontinued, the State may attempt to
                   recover these improper payments. States may treat these improper
                   15
                      ACF, Instructions for DMDC electronic file transmission on the PARIS project. 

                   Accessed at http://www.acf.hhs.gov/programs/paris/instructions-for-dmdc-electronic-file-
                   transmission on September 16, 2013. 

                   16
                      Ibid. 

                   17
                      70 Fed. Reg. 40690 (July 14, 2005). 

                   18
                      A coverage period is the period during which an individual is entitled to benefits. 

                   19
                      Government Accountability Office (GAO), PARIS Project Can Help States Reduce 

                   Improper Benefit Payments, GAO-01-935, September 2001, p. 5.

PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                 4
                   payments to managed care organizations and fee-for-service providers as
                   overpayments, and recover them accordingly.20 Once an improper
                   payment is identified, State Medicaid agency staff refer the matter to the
                   appropriate State component to recover these Medicaid payments. The
                   criteria for recovering improper Medicaid payments vary by State;
                   therefore, not all improper payments may result in recoveries.
                   Related Work
                   In 2008, a series of OIG audits found that millions of dollars were paid for
                   Medicaid services on behalf of beneficiaries who should not have been
                   eligible because of their residency. One of these audits found that the
                   District of Columbia paid $1.9 million from July 2005 to June 2006 for
                   Medicaid services provided to beneficiaries who should not have been
                   eligible because of their residency in Maryland.21
                   Other reports have been issued saying that there are issues with how States
                   verify matches from the PARIS Interstate Match. For example, in 2001, a
                   GAO report found that States participating in PARIS gave little or no
                   attention to interstate matches, allowing matches to go unresolved.22 Also,
                   an ACF-commissioned report that looked at a sample of 14 States found
                   that not all 14 were verifying the majority of the matches from the PARIS
                   Interstate Match.23

                   METHODOLOGY
                   Scope
                   Our evaluation is national in scope and focuses on States’ participation in
                   the Medicaid Interstate Match. We used DMDC’s match files from the
                   August 2011 match because States are expected to, at a minimum,


                   20
                      SSA § 1128J, added by the Patient Protection and Affordable Care Act, P.L.
                   No. 111-148 § 6402 (March 23, 2010), as amended by the Health Care Reconciliation
                   Act of 2010, P.L. No. 111-152 (March 30, 2010), collectively known as the ACA.
                   Overpayments are funds that a person receives or retains under the Medicaid program, to
                   which the person, after applicable reconciliation, is not entitled. Once an overpayment is
                   identified and not returned within the deadlines in SSA § 1128J(d)(2), the overpayment
                   becomes a debt owed to the Federal Government. Under SSA § 1128J, beneficiaries are
                   not liable for overpayments.
                   21
                      OIG, Medicaid Payments for Services Provided to Beneficiaries With Concurrent 

                   Eligibility in the District of Columbia and Maryland for July 1, 2005, Through

                   June 30, 2006: The District of Columbia Department of Health, A-03-07-00214, 

                   April 2008, p. 3.

                   22
                      GAO, PARIS Project Can Help States Reduce Improper Benefit Payments,
                   GAO-01-935, September 2001, p. 15. 

                   23
                      Health Systems Research, Inc., an Altarum Company, Evaluation to Determine the 

                   Effectiveness of the Public Assistance Reporting and Information System—Final Report, 

                   June 2007, p. 34. Accessed at http://www.acf.hhs.gov/sites/default/files/files/ 

                   PARISFinal082007.pdf on September 18, 2013. 


PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                   5
                   participate in this quarterly match.24, 25 To allow States adequate time to
                   verify matches from the August 2011 match, we continued to collect data
                   through November 2012. The findings in this report are projected to all
                   the matches in the August 2011 match.
                   Data Collection and Analysis
                   We used three data sources for our analysis: (1) DMDC match files from
                   the August 2011 match, (2) structured interviews with CMS officials, and
                   (3) a survey of the 52 State Medicaid agencies.
                   DMDC Match Files From the August 2011 Medicaid Interstate Match. To
                   determine the extent to which States participate in the Medicaid Interstate
                   Match, we obtained from DMDC all match files from the August 2011
                   match and selected a simple random sample of 300 matches. Overall, the
                   August 2011 match files identified 159,964 matches from all States. The
                   sample of 300 matches allows us to project the results of our analysis
                   nationally to all the matches in the Medicaid Interstate Match for that
                   quarter. We are projecting only to those Medicaid beneficiaries whose
                   enrollment data was submitted for the quarterly Medicaid Interstate Match
                   conducted in August 2011. For the statistics we project in this report, the
                   estimates and 95-percent confidence intervals are listed in Appendix A.
                   For each match in the sample, we gathered information from all States that
                   submitted Medicaid enrollment data for the beneficiary. For the
                   beneficiaries in our sample of matches, we asked States whether they had
                   verified the match(es) to determine the beneficiaries’ eligibility. If a State
                   had done so and determined that a beneficiary was no longer eligible for
                   benefits in its State, we asked whether the State discontinued the
                   beneficiary’s benefits. If the State had discontinued the benefits, we asked
                   it to provide the amount of improper Medicaid payments it made on behalf
                   of the beneficiary and whether it recovered any of this amount.
                   From the sample of matches and States’ responses, we projected the
                   following information:
                   	 the percentage of matches from the August 2011 match that States
                      verified; and




                   24
                      ACF, Instructions for DMDC electronic file transmission on the PARIS project.
                   Accessed at http://www.acf.hhs.gov/programs/paris/instructions-for-dmdc-electronic-file-
                   transmission on September 16, 2013.
                   25
                      We did not use DMDC’s match files from the August 2012 Medicaid Interstate Match.
                   Using DMDC match files from that period would not have allowed sufficient time for
                   States to verify the matches.

PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                 6
                       the percentage of beneficiaries from the August 2011 match whose
                        benefits were discontinued because their State determined that they
                        were ineligible to receive Medicaid benefits in the State.
                   We were unable to project the total amount of improper Medicaid
                   payments made and recovered by States because States reported improper
                   payments for only a limited number of matches. Therefore, our findings
                   are limited to presenting the actual amounts of improper payments and of
                   recoveries that States reported making based on our sample of
                   300 matches from the August 2011 match.
                   To identify issues that States encounter when verifying matches, we asked
                   States to explain their reasons for not verifying each beneficiary’s
                   Medicaid eligibility in our sample. We analyzed their responses and
                   described the reasons States did not verify the eligibility of the
                   beneficiaries.
                   Structured Interviews With CMS Officials. We conducted structured
                   interviews with CMS officials to determine the extent to which they
                   provided guidance to States, beyond the SMDL, for participating in the
                   Medicaid Interstate Match. We asked them to describe any guidance that
                   they provided to States related to participating in the match, and we
                   analyzed their responses.
                   State Medicaid Agency Survey. We administered an electronic survey to
                   Medicaid agency staff in all States to determine, for each of the four steps
                   listed on pages 3–4, the extent to which they (1) have policies and
                   procedures (policies), (2) experience barriers, and (3) receive guidance
                   from CMS. If States reported that they had polices for any of the four
                   steps, we asked them to provide their policies to us. We reviewed the
                   policies to validate States’ responses and determined the number of States
                   that had policies for each step. We asked States to describe any barriers
                   they experienced for each of the four steps, and we analyzed their
                   responses to determine the type of any such barriers. We asked States
                   what type of additional guidance, if any, they would like to receive related
                   to the Medicaid Interstate Match. We analyzed survey responses to
                   calculate the number of States that wanted to receive such guidance and to
                   determine the types of such guidance.
                   We asked States to provide us with copies of their amendment to their
                   Medicaid State plan that documents their participation in PARIS. We
                   calculated the number of States that submitted such an amendment. We
                   reviewed the amendments to determine the extent to which States
                   addressed one or more steps related to participating in the Medicaid
                   Interstate Match.


PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)      7
                   To determine whether States submitted Medicaid enrollment data for all of
                   their beneficiaries, we asked each State to provide us with (for the
                   August 2011 match) (1) the total number of beneficiaries enrolled in its
                   State Medicaid program and (2) the total number of such beneficiaries for
                   whom it submitted enrollment data for the match. To determine how
                   many States did not submit enrollment data for all of their beneficiaries,
                   we took the total number of beneficiaries enrolled in each State’s
                   Medicaid program and subtracted the total number of beneficiaries for
                   whom the State submitted data for the match.
                   We received survey responses from all States.
                   Limitations
                   We did not determine the validity of the matches from the August 2011
                   Medicaid Interstate Match. Our analysis of the survey of State Medicaid
                   agencies and the information we gathered on our sample of matches is
                   based on self-reported data as of November 2012. We did not
                   independently verify the accuracy of the survey data. We could not
                   determine States’ full compliance with the SSA because neither the SSA
                   nor CMS guidance defines the meaning of “participation” as it relates to
                   the Medicaid Interstate Match.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)      8
                   FINDINGS
                   States’ participation in the Medicaid Interstate Match is
                   limited
                   State participation in the Medicaid Interstate Match is required as a
                   condition of receiving Medicaid funding for automated data systems. This
                   match has the potential to identify beneficiaries who may be enrolled in
                   multiple State Medicaid programs and thus to enable States to reduce
                   improper payments. In analyzing how States perform the four steps to
                   reduce improper payments through the match, we found that States’
                   participation in the August 2011 match was limited. Specifically, States
                   did not (1) submit Medicaid enrollment data for all beneficiaries;
                   (2) verify more than half the matches (to determine beneficiaries’
                   Medicaid eligibility); (3) discontinue beneficiaries’ benefits for over half
                   the verified matches; or (4) recover any improper payments.
                   Fourteen States did not submit Medicaid enrollment data for
                   all beneficiaries in their State; five States reported that barriers
                   related to resources or technical capability limited their ability
                   to submit Medicaid enrollment data
                   While all States submitted Medicaid enrollment data for the August 2011
                   match, 14 States did not submit enrollment data for all of their
                   beneficiaries. These 14 States did not submit between 1 and 85 percent—
                   with an average of 46 percent and a median of 11 percent—of the
                   Medicaid enrollment data for their beneficiaries. For example, one State
                   did not submit enrollment data for 79 percent of its Medicaid beneficiaries
                   (7 million of 9 million).26 Another State did not submit enrollment data
                   for 66 percent of its beneficiaries (650,000 of 988,000). To maximize the
                   potential for the Medicaid Interstate Match to identify beneficiaries who
                   may be enrolled in multiple State Medicaid programs, each State needs to
                   submit complete enrollment data for all of its beneficiaries.
                   Among the 14 States that did not submit Medicaid enrollment data for all
                   of their beneficiaries, 5 States reported that barriers related to resources or
                   to technical capability limited their ability to submit data to DMDC. For
                   example, one State Medicaid agency reported that it lacked staff to prepare
                   the enrollment data for submission. Another State reported that it does not
                   submit enrollment data from one of its two Medicaid enrollment systems
                   because the system does not have the technical capability to display
                   information that it receives from DMDC.



                   26
                        Medicaid enrollment figures provided by the State are rounded.

PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)          9
                   States did not verify almost 70 percent of the matches because
                   of issues with the enrollment data
                   States did not verify 68 percent of the matches from the August 2011
                   match because issues with the enrollment data led States to determine that
                   the matches no longer merited verification. The most common reason that
                   States did not verify matches was that States submitted enrollment data for
                   beneficiaries who were no longer enrolled in—or soon to be no longer
                   enrolled in—their Medicaid programs. The second most common reason
                   that States did not verify matches was that States submitted incomplete or
                   inaccurate enrollment data (e.g., incorrect SSNs).
                   With regard to the matches that were not verified, States did not verify
                   56 percent of those because the Medicaid eligibility dates for the
                   beneficiaries indicated that they were no longer enrolled in—or would
                   soon no longer be enrolled in—the program for at least one of the States
                   for which there was a match. When a State submits Medicaid eligibility
                   dates that indicate that the beneficiary is no longer enrolled in its Medicaid
                   program, it can create a “false positive” match. When another State
                   examines this match and finds that the eligibility dates indicate that the
                   beneficiary will soon no longer be enrolled in at least one of the States’
                   Medicaid programs, that State may conclude that the match does not merit
                   the resources for verification.
                   Of the matches that were not verified, States did not verify 17 percent of
                   those because the match was associated with incomplete or inaccurate
                   Medicaid eligibility dates or inaccurate SSNs. When a State submits
                   incomplete or inaccurate eligibility dates for beneficiaries who are
                   included on the match file, it is difficult for other States to determine
                   whether such beneficiaries have an overlapping Medicaid coverage period.
                   States must then conduct resource-intensive followup activities, which
                   may include obtaining additional information from other States.
                   Therefore, given their limited information and resources, States may
                   conclude that these matches also do not merit verification. One State said:
                   “When the data is not accurate or reliable, [conducting verification] is not
                   an efficient use of [State Medicaid agency] staff time.”  
                   Less than half the verified matches resulted in States’
                   discontinuing beneficiaries’ benefits
                   States reduce improper payments through participation in the Medicaid
                   Interstate Match when one or more States discontinue the Medicaid
                   benefits of beneficiaries who are found to be enrolled in multiple State
                   Medicaid programs. While States verified 32 percent of the matches from
                   the August 2011 match, only 41 percent of those matches resulted in a
                   discontinuation of benefits. Forty-nine percent of the matches verified did

PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)       10
                   not result in a discontinuation of benefits because they were verified by
                   only one of the States in which the beneficiary was enrolled, and that State
                   was not the one that needed to discontinue benefits.27 For the process to
                   accurately identify beneficiaries who are improperly enrolled in multiple
                   State Medicaid programs, each State that is flagged in a given match must
                   verify the match to determine whether it needs to discontinue the
                   beneficiary’s benefits.
                   See Appendix B for the number of projected matches for the August 2011
                   match that are associated with the above percentages for verified and
                   unverified matches.
                   States did not recover any improper Medicaid payments
                   To maximize the potential for reducing improper payments through
                   participation in the Medicaid Interstate Match, States may recover
                   improper payments made on behalf of beneficiaries found to be ineligible.
                   For 41 percent of the verified matches from the August 2011 match that
                   resulted in a discontinuation of benefits, States had made improper
                   payments on behalf of beneficiaries. However, States provided the
                   amount of improper payments for only 18 percent of these matches,28
                   which totaled $6,200 in improper Medicaid payments. Although this
                   amount is small, we do not know the amount of improper payments for the
                   other 82 percent of the verified matches that resulted in a discontinuation
                   of benefits. Furthermore, all of the beneficiaries associated with the
                   $6,200 in improper payments were enrolled in Medicaid managed care
                   programs. States reported that in these cases, they did not recover any
                   improper payments from the managed care organizations because of
                   barriers such as lack of resources and length of time needed to recover
                   improper payments. This suggests that if the States had not discontinued
                   these beneficiaries’ benefits, they potentially would have made additional
                   unrecoverable improper payments.

                   CMS guidance to States for participating in the
                   Medicaid Interstate Match is limited; States reported
                   that they needed more guidance
                   In June 2010, CMS issued an SMDL to provide guidance to State
                   Medicaid agencies on complying with the SSA’s requirement that States
                   participate in PARIS. The guidance requires States to amend their
                   respective Medicaid State plans to document their participation in PARIS,


                   27
                      For 10 percent of the matches that were verified, States did not provide us with
                   information to determine whether the beneficiaries’ Medicaid benefits were discontinued.
                   28
                      States did not provide the amounts of improper payments for enough matches to
                   project the total amount of improper payments for the August 2011 match.

PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                 11
                   but it does not address any of the four steps related to reducing improper
                   payments through participation in the Medicaid Interstate Match. In the
                   absence of specific guidance, only four States have amended their
                   respective State plans to include language that addresses one or more of
                   the four steps.29
                   Twenty-two of the fifty-two States reported they would like additional
                   guidance related to one or more of the steps for participating in the
                   Medicaid Interstate Match. See Table 1 for each step and the
                   corresponding number of States that would like additional guidance.
                   Table 1. Number of States That Would Like To Receive Guidance
                   Regarding Steps Related to Participation in the Medicaid Interstate Match
                                                                         Number of States
                     Step Related to Participation in the              That Would Like To
                     Medicaid Interstate Match                          Receive Guidance
                                                                          Regarding Step
                     Submitting Medicaid enrollment data                                7
                     Verifying matches                                                      20
                     Discontinuing benefits                                                 22
                     Recovering improper payments                                           21
                   Source: OIG analysis of survey data, 2013. 

                   Note: Categories are not mutually exclusive. Therefore, the total number of

                   States exceeds 52.




                   Most States had policies addressing at least one of
                   the steps for participating in the Medicaid Interstate
                   Match
                   Thirty-four of the fifty-two States had policies addressing at least one of
                   the steps to reduce improper payments through participation in the
                   Medicaid Interstate Match. Nine of those States had policies related to all
                   four steps. Almost half of all States had policies on submitting Medicaid
                   enrollment data. More than half of all States had policies on verifying
                   matches, and more than a third of all States had policies on discontinuing
                   benefits and policies on recovering improper payments. See Table 2 for
                   the number of States that had policies addressing each of the four steps for
                   participating in the match.




                   29
                     In addition, CMS guidance did not set a deadline for States to amend their respective
                   Medicaid State Plans. In the absence of such a deadline, 15 States had not amended their
                   plans as of November 2012.

PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                 12
                   Table 2. Number of States That Have Policies Regarding Steps Related to
                   the Medicaid Interstate Match
                                                                      Number of States
                     Step Related to Participation in the
                                                                         With Policies
                     Medicaid Interstate Match
                                                                       Regarding Step
                     Submitting Medicaid enrollment data                            25
                     Verifying matches                                                  27
                     Discontinuing benefits                                             19
                     Recovering improper payments                                       20
                   Source: OIG analysis of PARIS policies, 2013. 

                   Note: Categories are not mutually exclusive. Therefore, the total number

                   of States exceeds 52. 





PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)       13
                   CONCLUSION AND RECOMMENDATION
                   State participation in the Medicaid Interstate Match is required unless
                   PARIS is succeeded by a system that provides for data matching to
                   identify beneficiaries who may be enrolled in multiple State Medicaid
                   programs. As of the date of this report, there is no such successor
                   system. The match provides States with an opportunity to reduce
                   improper Medicaid payments. However, State participation in the match
                   is limited. States do not consistently perform all four steps to reduce
                   improper payments. Furthermore, CMS guidance does not define the
                   meaning of “participation” as it relates to the match.
                   For States to receive the full benefit of their participation in the Medicaid
                   Interstate Match, CMS needs to provide additional guidance to States that
                   helps maximize the match’s potential to accurately identify beneficiaries
                   who are enrolled in multiple States. States did not verify the majority of
                   matches from the August 2011 match because they concluded that these
                   matches did not merit verification. Guidance to States that helps improve
                   the accuracy of the matches would likely increase the usefulness of the
                   match. Until a successor system exists for PARIS, we recommend that
                   CMS:
                   Issue Guidance to States on the Requirement for Participating
                   in the Medicaid Interstate Match
                   Guidance from CMS could assist States in complying with the
                   requirement for participating in the Medicaid Interstate Match. This
                   guidance also could help States receive the full benefit of their
                   participation. Until PARIS is succeeded by another system, CMS should
                   define the meaning of “participation” in the match by establishing clear
                   expectations for the actions that States should take to comply with the
                   requirement. CMS should then issue guidance to States on its
                   expectations for State participation in the match. In addition to assisting
                   States in achieving compliance, guidance would also help ensure that
                   States develop consistent policies regarding the match.
                   CMS guidance should address the following steps:
                   Submitting Medicaid Enrollment Data to DMDC. Guidance for
                   submitting enrollment data should clarify whether States should submit
                   Medicaid enrollment data for all of their beneficiaries. Guidance that
                   requires States to do so would maximize the potential of the match to
                   identify all beneficiaries who may be enrolled in multiple State Medicaid
                   programs. Guidance also should clarify what data States should submit
                   for the match. Submitting consistent, accurate, and complete enrollment



PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)         14
                   data for the match could potentially (1) generate the most accurate
                   matches and (2) reduce the amount of time needed to verify matches.
                   Verifying Matches Identified by the Medicaid Interstate Match. After
                   CMS issues guidance for the submission of Medicaid enrollment data, it
                   should issue guidance requiring States to verify matches to determine
                   beneficiaries’ Medicaid eligibility. CMS could also provide guidance to
                   States on how to track match-related activities and timelines for verifying
                   matches. This type of guidance could result in the prompt verification and
                   discontinuation of Medicaid benefits, which could reduce the length of
                   time when beneficiaries are enrolled in multiple State Medicaid programs
                   and thus ultimately reduce the amount of improper payments.
                   Discontinuing Benefits and Recovering Improper Payments. Although
                   States vary in their systems and processes for discontinuing benefits and
                   recovering improper payments, CMS could gather information from States
                   regarding their best practices for these tasks. Working with States to
                   develop guidance may result in fewer improper payments and/or in more
                   money being returned to Federal and State governments. As appropriate,
                   CMS could include the best-practices information in its guidance to States
                   on these topics. CMS could also collaborate with ACF to provide
                   additional guidance through the PARIS Web site and annual conference.




PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)    15
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendation that it issue guidance to States
                   on the requirement for participating in the Medicaid Interstate Match.
                   For the full text of CMS’s comments, see Appendix C.




PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)    16
                   APPENDIX A
                   Confidence Intervals

                                                                                                          95-Percent
                                                                                                 Point
                     Estimate Description                                    Sample Size                  Confidence
                                                                                              Estimate
                                                                                                             Interval

                     Matches that States did not verify primarily
                     because of barriers with the Medicaid enrollment        300 matches          68%    62.3%–73.0%
                     data
                     Matches that were not verified because the
                     Medicaid eligibility dates on the match file
                     indicated that the beneficiary was no longer        203 matches that
                                                                                                  56%    49.2%–63.0%
                     enrolled or would soon no longer be enrolled in      were not verified
                     the Medicaid program for at least one of the
                     States for which there was a match

                     Matches that were not verified because the
                                                                         203 matches that
                     match was associated with missing or inaccurate                              18%    12.0%–23.0%
                                                                          were not verified
                     Medicaid eligibility dates or inaccurate SSNs

                     Matches that States verified                            300 matches          32%    27.0%–37.7%

                     Matches that did not result in a discontinuation
                     of benefits because they were verified by only       97 matches that
                                                                                                  49%    38.3%–59.0%
                     one of the States in which the beneficiary was          were verified
                     enrolled

                     Matches that resulted in a discontinuation of        97 matches that
                                                                                                  41%    31.3%–51.2%
                     benefits                                                were verified
                   Source: OIG analysis of match data, 2013.




PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                         17
                   APPENDIX B
                   Number of Projected Matches for the August 2011 Medicaid
                   Interstate Match

                                                                                      Projected         Number of
                                                                                     Number of       Matches from
                     Estimate Description
                                                                                       Matches         the Sample
                                                                                    (n=159,964)            (n=300)

                     Matches that States did not verify                                    108,776            203
                          Matches that were not verified because the
                          Medicaid eligibility dates on the match file indicated
                          that the beneficiary was no longer enrolled or would
                                                                                            60,915            203
                          soon no longer be enrolled in the Medicaid program
                          for at least one of the States for which there was a
                          match
                          Matches that were not verified because the match
                          was associated with incomplete or inaccurate                      18,492            203
                          Medicaid eligibility dates or inaccurate SSNs

                     Matches States verified                                                51,189             97

                          Matches that did not result in a discontinuation of
                          benefits because they were verified by only one of                25,082             47
                          the States in which the beneficiary was enrolled

                          Matches that resulted in a discontinuation of
                                                                                            20,987             40
                          benefits
                   Source: OIG analysis of match data, 2013.




PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                             18
                   APPENDIXC
                   Agency Comments




  c~.~
    ~           DEPARTMENT OF HEALTH & HUMAN SERVICE_s_ _______c_e_nt-er_s_to_r_M_ed-ic_a_r•_&_M_e_d_ic_ai_d_s_eTV_i_c•_•
      s~ 	                                                                                Administrator
                                                                                          Washington. DC 20201




               DATE:           JUN 11 2014

               TO: 	          Daniel R. Levinson 

                              Inspector General 

                                                 /S/
               FROM: 	        Ma'ld.Jyn Tavenner 

                              Administretdr 


               SUBJECT: 	 Office of the Inspector General (OIG) Draft Report: "Public Assistance Reporting
                          Information System: State Participation in the Medicaid Interstate Match is
                          Limited" (OEI-09-11-00780)

               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
               comment on the above-referenced OIG draft report. OIG's report focuses on states' participation
               in the Medicaid Interstate Match. This is a tool used to reduce improper Medicaid payments,
               made as a result of one type of eligibility error. by identifYing beneficiaries who are enrolled in
               multiple state Medicaid programs. The findings and recommendations focus primarily on states'
               use of the tool, rather than on actual eligibility errors resulting from states' failure to use it.

               The report did find that, in its sample from August 2011, states did make improper payments for
               beneficiaries for whom interstate matches (i.e., evidence that the beneficiary was enrolled in
               more than one state) ultimately resulted in a discontinuation of benefits. However, states only
               provided the amount of improper payments for 18 percent of these matches, which totaled
               $6.200 in improper Medicaid payments.

               The report does not seem to have enough information to adequately determine the real scope of
               eligibility errors resulting from inadequate use of the Medicaid Interstate Match; but, based on its
               findings, OIG did conclude that states' participation is limited and that states need more
               guidance from CMS about such participation.

               OIG Recommendation

               The OIG recommends that CMS issue guidance to states on the requirement for participating in
               the Medicaid Interstate Match.

               CMS Response

               The CMS concurs with OIG's recommendation that CMS issue further guidance to states to
               clarify the requirement for participating in the Medicaid Interstate Match.




PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)                                    19
Agency Comments (continued)




PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)   20
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   China Tantameng served as the team leader for this study, and
                   Veronica Gonzalez served as the lead analyst. Other Office of Evaluation
                   and Inspections staff from the San Francisco regional office who
                   conducted the study include Christina Lester and Tiffany Stanley. Central
                   office staff who provided support include Clarence Arnold, Kevin Manley,
                   and Christine Moritz.




PARIS: State Participation in the Medicaid Interstate Match Is Limited (OEI-09-11-00780)     21
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
